                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A08010001                                                                          Page 1 of 1




                                                                                                          i
          OIG received an allegation that a PI (the subject)' had provided misleading information in the
          biographical sketch of an NSF proposal2. A subsequent evaluation found that a total of six
          publications had been improperly referenced in this and ~ i other
                                                                      x NSF proposals.3

          We reviewed the biographical sketches and the journal articles and solicited the subject's comments
          on his actions.

          Although we found that the subject referenced his publications in incorrect and unacceptable
          manners, contrary to proper academic practices, we determined that his actions did not rise to a level
          that warrants further investigation. However, we wrote to the subject to warn him this practice was
          unacceptable.


          Accordingly, this case is closed and no further action will be taken.




NSF OIG Form 2 ( 1 1/02)
